_______________

No.

_______________
in the

Supreme Court
of the

United States
Term,
_______________

DANNY COLLINS,
Petitioner,

vs.

UNITED STATES OF AMERICA,
Respondent.

_______________

ON PETITION FOR A WRIT OF CERTIORARI FROM
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
____________

Gregory C. Sassé
6642 Silvermound Drive
Mentor, OH 44060
(440) 488-1919
Fax (440) 974-8194
gregory.sasse@gmail.com

Counsel for Petitioner

QUESTIONS PRESENTED
I.
Does a trial structure which denies the right to cross-examine government
witnesses after redirect testimony, based upon a judicial determination that the
testimony is reliable, violate the Sixth Amendment’s Confrontation Clause?

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

iv

JURISDICTION

1

CONSTITUTIONAL PROVISION INVOLVED

2

OPINION BELOW (November 30, 2018)

X

Appendix A

STATEMENT OF THE CASE

23

REASONS FOR GRANTING THE WRIT

28

1. Because the Sixth Circuit has authorized a trial structure within the
Circuit which denies the right to cross-examine government witnesses
regarding redirect testimony based upon the District Court’s
determination that the testimony is reliable, which violates the Sixth
Amendment’s Confrontation Clause as this Court’s declared in Crawford
v. Washington, 541 U.S. 36, 54 (2004).
CONCLUSION …………………………. …………………………….……..…….

34

APPENDIX ………………………………………………………………………… .. 35

iii

TABLE OF AUTHORITIES
Cases
Crawford v. Washington, 541 U.S. 36, 54 (2004)………………………………… 26,27
Weaver v. Massachusetts, __ U.S. __, 137 S. Ct. 1899, 1907. (2017)……………… 27

iv

______________

No.

__________
in the

Supreme Court
of the

United States
Term,
_______________

DANNY COLLINS,
Petitioner,
vs.

UNITED STATES OF AMERICA
Respondent.

_______________
ON PETITION FOR A WRIT OF CERTIORARI FROM
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_____________
The Petitioner, Danny Collins, respectfully prays that a writ of certiorari issue
to review the judgment and opinion of the United States Court of Appeals for the
Sixth Circuit entered in the above-entitled proceeding on July 26, 2021.
OPINION BELOW
The Sixth Circuit’s opinion in this matter was not published and is attached
hereto in Appendix 1.
JURISDICTION
The Sixth Circuit denied Petitioner’s appeal on July 26, 2021. The mandate was filed:
August 17, 2021. This petition is timely filed. The jurisdiction of this Court is
5

invoked under 28 U.S.C. § 1291 and Supreme Court Rule 12.

6

CONSTITUTIONAL PROVISION INVOLVED
The Sixth Amendment to the United States Constitution states:
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.

7

STATEMENT OF THE CASE
Petitioner was accused of Count One, Conspiracy to Distribute
Methamphetamine 21U.S.C. § 846; Count Two, Possession of a Firearm in
furtherance of a drug trafficking offense 21 U.S.C. § 924(c); and Count Three, Felon
in Possession of Firearm 18 U.S.C. §§ 922(g)(1). [R. 1 Indictment, PageID 1-5].
On March 12-13, 2020 a jury trial was conducted. [R. 167: Minute Entries 13536]. Stipulations were read to the jury. [Id., PageID 1247-48].
The government’s first witness was Michael Sloan. Sloan testified that he took
Collins to Louisville to introduce Collins to some people to buy methamphetamine.
Sloan testified that in payment, Collins gave Sloan a quarter of an ounce of
methamphetamine. Sloan testified that typically he and Collins would borrow a
vehicle to use on the trip. Sloan testified that typically they paid the owner of the
vehicle with some methamphetamine. They would use some of the
methamphetamine themselves to assure its quality. They would purchase one to two
pounds of methamphetamine on these trips and bring the methamphetamine to
Collins’ residence. Sloan testified that Collins always was armed with a pistol. [Id.,
PageID 1250-54].
Sloan testified that there was a gun safe in the bedroom of Collins’ residence,
which was a trailer, and that Collins’ daughter also resided at Collins’ residence. He
testified that he witnessed Sabrina Chaffins selling methamphetamine out of
Collins’ trailer and that an individual by the name of Sherrell Sandlin also went
8

with Collins and Sloan to Louisville to buy methamphetamine. Sloan testified that
he had pled guilty and was convicted of conspiracy to traffic methamphetamine. [Id.,
PageID 1254-59].
On cross examination, Sloan testified that he made four or five trips with
Collins to Louisville to buy methamphetamine. Sloan testified that he would receive
no benefit from the government for his testimony. Sloan testified that he knew many
people involved in the illegal drug trade but that he travelled with Collins to
Louisville to buy methamphetamine because the drugs Collins gave him were
cheaper than having to buy it locally and that he went with Collins because Sloan
had no funds with which to buy drugs. [Id., PageID 1261-67].
On redirect examination, Sloan testified that he received a fourth of an ounce
of methamphetamine, which had a value of about 750 or 800 dollars. Although
previously asked about not having thousands of dollars to buy drugs, Sloan was not
asked about having enough currency to purchase the volume of drugs he received for
traveling with Collins. Sloan testified that he would receive cooperation credit under
his plea agreement, but that to receive it he would have to tell the truth. Sloan did
not disclose the particulars of the benefits he would receive under the plea
agreement for his co-operation or why he had denied receipt of the benefits in his
direct testimony. [Id., PageID 1267-69].
The Court did not allow recross examination, there was no examination of
what other benefits Sloan might have received nor why he had denied having them.
9

The government next called state police detective Omen Wesley Sandlin.
Sandlin testified that he was contacted by an attorney who represented an
individual named Scotty Couch, who wished to be a confidential informant. Couch
worked as an informant to receive leniency on pending charges, but continued to be a
confidential informant after the conclusion of all charges against him. [Id., PageID
1270-73].
Sandlin, without objection, detailed reasons why, in general, confidential
informants cooperate. The reasons included: to better their community, wanting to
get drug dealers out of their community, to receive payment, and to receive leniency
on pending charges. Sandlin testified to the police payment policies for drugs. [Id.,
PageID 1273].
Sandlin, without objection, detailed reasons why confidential informants don't
feel safe, and what, in general, Sandlin does when he does not believe confidential
informants are safe entering a residence or parking lot to attempt to buy illegal
drugs. Sandlin testified that he always attempts to arrange the purchase of illegal
drugs to be as safe as it can be made because his first priority was officer safety and
confidential informant safety. [Id., PageID 1274-75].
Sandlin testified to the general procedures he takes to ensure the safety of
informants. Sandlin testified that usually a confidential informant first contacts
police concerning somebody dealing drugs. Sandlin testified that the police then
perform a background check on the purported drug dealer to determine how
10

dangerous he/she is and how many other people are likely to be present assisting the
drug dealer. [Id.].
Sandlin was asked what general procedures are taken in arranging for a
controlled buy to be made. Sandlin testified that usually the police meet the
confidential informant at a predetermined location. Sandlin was asked what
happens after a confidential informant arrives at the predetermined location.
According to Sandlin, the police then search the informant and any vehicle they
might be driving to make sure there is no contraband; police then ensure an
informant does not have a firearm to make the purchase of drugs as safe as possible.
Police have a lot of rules for confidential informants, some of which prohibit them
from using drugs or alcohol. [Id., PageID 1275-76].
Sandlin testified that on this particular case the police had more people
involved, ensuring that somebody was always really close to the informant and was
watching him/her. [Id., PageID 1276].
Sandlin testified that on eight occasions Couch met police at a predetermined
location for eight controlled buys. Sandlin testified that: Couch was searched along
with his vehicle; Couch was given marked funds for “buy money” by either the
Kentucky State Place or ATF; police utilized a covert camera to audio-video record;
and Couch would come back to the same predetermined location unless Couch did
not feel safe coming back to that location in which case the location would be
changed. Sandlin testified that once the purchase was completed Couch would
11

deliver the drugs or guns he had purchased to the police and that Couch would give
the police the audio-video device and the recording, which was reviewed. Then Couch
and his vehicle would be searched again. Sandlin testified that this procedure was
repeated for every controlled buy. Sandlin then testified to procedures which were
followed when an informant engaged in misconduct. Sandlin testified that there
were no issues of misconduct with Couch. [Id., PageID 1276-79].
The video recording taken by Sandlin, the drugs obtained by Sandlin, and the
laboratory reports concerning drugs obtained by Sandlin were admitted into
evidence without objection. [Id., PageID 1279-84].
Cross examination disclosed that Couch’s motivation to cooperate was initially
driven by Couch’s need to obtain leniency for charges which were pending when he
first became an informant, which had not been brought out in his testimony and that
he was being paid for Collins’ investigation and for other investigations. Couch was
paid $800.00 by the Kentucky State Police for the Collins investigation and a total of
almost $4,000.00 for all of the investigations he worked; additionally, he was paid by
the Bureau of Alcohol Tobacco and Firearms. Cross examination also disclosed that
there was no video recording of the transaction giving rise to Count 4 of the
Indictment and no fingerprints ever were taken from any of the baggies in which the
drugs purportedly sold by Collins were contained. [Id., PageID 1285-92].
Redirect examination disclosed that no surveillance was possible inside
Collins’ trailer because of the dark tint on the trailer’s windows. Extensive new
12

testimony was adduced concerning the quality of the video recordings, how they
compared to other video recordings by informants in general, and the amount of light
in Collins’ residence. [Id., PageID 1293-95].
The court announced its trial structure: When the defense attempted to
recross Sandlin the court stated, “I only allow recross with leave” and denied the
defense an opportunity to recross Sandlin. Presumably because the court determined
that the testimony was reliable the court determined that recross would yield
nothing significant. Thus, there was no opportunity to recross regarding the poor
quality of some of the video recordings or other issues. [Id., PageID 1296].
The government’s next witness was Scotty Couch. Couch testified that he
continued to work as an informant after there were no charges against him because
it was the right thing to do. Couch testified to similar “controlled buy” procedures as
those to which Sandlin had testified, adding that Couch was given buy money. [Id.,
PageID 1297-1300].
Couch testified that he made a series of eight illegal drug purchases from
Collins.
Couch testified that his first buy of illegal drugs actually was from Samantha
Collins for an 8-ball of methamphetamine on November 29, 2017. The deal was
arranged through Sabrina Chaffins. Couch testified that the deal took place at
Danny Collins’ and Samantha Collins’ joint residence.
Couch testified that the second buy again was arranged through Sabrina
13

Chaffins and that the purchase was from Samantha Collins for an 8-ball of
methamphetamine on December 8, 2017.
Couch testified that the third buy was on December 12, 2017. That time
Couch testified that he had to wait for Danny Collins to bring methamphetamine.
Danny Collins entered the residence and sold Couch another 8-ball of
methamphetamine.
Couch testified that the fourth buy was on January 24, 2018, again from
Samantha Collins. On that occasion Couch testified that he purchased an ounce of
methamphetamine and a firearm.
Couch testified that the next purchase of methamphetamine occurred on
February 3, 2018. Couch testified that he was unsure of the amount but believed
that he purchased another ounce of methamphetamine. Couch testified that he
purchased a rifle and shotgun from a Mr. Quillen. Danny Collins was not present for
the purchases and Couch thought he was in the residence’s garage.
Couch testified that on February 21st of 2018, he went back to the residence
which was a trailer again to purchase methamphetamine but on that occasion
Danny and Samantha Collins believed they were about to be robbed. Couch testified
that Danny Collins had a gun drawn and Samantha Collins had a knife. Couch
testified that Samantha Collins sold him methamphetamine on that occasion. [Id.,
PageID 1301-20].
Couch testified that he went back to the trailer one more time on March 2,
14

2018, for a final purchase of a 20-gauge shotgun from Danny Collins. Couch testified
that as with all the purchases, he took the shotgun to law enforcement. [Id., PageID
1320-24].
On cross examination, Couch testified that he made one of the drug purchases
from a Mr. Quillen, contrary to his previous testimony. Couch testified that he
purchased two handguns from Samantha Collins and that he was working other
cases simultaneously with the Danny Collins investigation. [Id., PageID 1330-33].
Couch testified that he originally faced drug trafficking charges. Couch
testified that because of his cooperation, some charges were dismissed and
ultimately, he was given probation. Couch testified that after he became an
informant he never went to jail. [Id., PageID 1333-1335].
Couch testified that he was “going into a situation with an individual with a
cocked and ready firearm and trying to buy drugs” although there had been no
testimony from this or any other witness concerning “cocked and ready firearm[s].”
Following the government’s redirect examination, the court inquired of the
government if they had any further questions. The government responded that they
had no further questions. The court asked the prosecution, “All right. Thank you.
May this witness be finally excused?” The prosecution responded in the affirmative
and the court said, “Thank you, sir. You can step down and you're free to go.” The
defense was not included in the colloquy. Again, there was no opportunity for recross
examination. [Id., PageID 1335].
15

The next witness was Raymond Barry Engle, a retired administrative
sergeant with the Kentucky State Police and most recently a deputy sheriff. Engle
testified that he was the evidence custodian for the Kentucky State Police and was in
charge of logging in items of evidence. Engle testified that he was involved in a
search warrant that was executed at the residence of Danny Collins on March 12,
2018. Engle testified that Danny Collins was found unconscious in a pickup truck
and was arrested. Found in the vehicle with Collins was $1,272 in currency and over
26 grams of methamphetamine. Engle testified that after he was read his Miranda
rights, Collins was informed that there was a search warrant for his residence, that
the police could destroy Collins’ safe in order to open it, or Collins could open it for
the police. Collins agreed to open the safe and did so. The safe contained over four
pounds (550 grams) of methamphetamine along with one or two firearms. [Id.,
PageID 1335-1346].
Engle testified that inside the residence there were various other smaller bags
containing methamphetamine. Engle was allowed to testify without objection to the
reaction of the Kentucky State Police laboratory workers when presented with the
volume of seized methamphetamine, “they about had a stroke.” Engle testified,
pursuant to leading questions, that the laboratory does not test every piece of the
drugs he brings to them because if they attempted to do so they would be
overwhelmed. Engle testified that the laboratory could never manage to test all of
the drugs Engle presented to them. [Id., PageID 1346-1351].
16

On cross examination, Engle testified that there actually were two safes in the
trailer, one opened by Samantha Collins and one by Danny Collins. Engle testified
that he did not know who would normally operate a Mazda vehicle found on the
property, or to whom the license plates belonged, or whether the Mazda vehicle had
been impounded. [Id., PageID 1358-1361].
In the government’s redirect examination the government presented new
testimony concerning the alleged opening of a safe by Collins and whether or not
there had been an opportunity for someone to inform Collins of the safe’s
combination. Engle further gave new testimony that the police kept Collins and his
daughter separate so that they could not conform their stories. Following this
redirect the court stated, “Thank you, sir. That concludes your testimony.” There
was no opportunity for recross examination concerning whether or not the precise
circumstances might have allowed someone to tell Collins the safe’s combination or if
Collins made any effort to conform his story to his daughter’s “story.” [Id., PageID
1364].
The next witness was Sergeant Alisha Congleton who testified that, “As the
meth became more prevalent in Letcher County, our office received several
complaints regarding the residence of Danny and Samantha Collins.” Congleton
testified that she conducted surveillance and saw heavy traffic which she said was
consistent in her experience with drug trafficking activity. Congleton testified that
she saw individuals going into the trailer for a short time and then leaving.
17

Congleton testified that she saw Danny Collins at the trailer during her
surveillance. Congleton testified that she also saw Danny Collins speaking to
Sherrell Sandlin. Congleton testified that there was a teenager who she learned was
Danny Collins’ daughter. Congleton testified that suspected methamphetamine and
drug paraphernalia were found inside of a purse in Samantha Collins's bedroom.
Congleton testified that a firearm was located either underneath the pillow or
mattress. Congleton testified that there was also a safe inside Samantha Collins's
bedroom containing methamphetamine, drug paraphernalia, money, and various
other items. Congleton testified that there was also a safe inside the bedroom Danny
Collins said was his bedroom. Congleton testified that there were prescription pills,
some of which were prescribed for Danny Collins, inside the bedroom he had referred
to as his bedroom and inside a bathroom in the trailer. Congleton testified that
Samantha Collins said that she could not open the safe in the bedroom which was
not hers because it belonged to her dad. Congleton testified that she could not say
whether Danny Collins was passed out in the Mazda or the Ford pickup truck but
that she considers them both pickup trucks. [Id., PageID 1365-1381].
Following redirect examination the court thanked the prosecutor and
informed the witness, “That concludes your testimony. You can step down.” The
defense was not addressed by the Court. There was no opportunity for recross. [Id.,
PageID 1381].
The government called Special Agent Jeffrey Baker.
18

Prior to any testimony from Baker and without consulting the defense, the
Court gave a jury instruction in the middle of the trial, without objection, stating:
“Again, occasionally I give you an instruction as we're in the middle of the
trial. You're about to hear the testimony of Agent Baker, who is expected to testify
regarding both facts and opinions. You should give each of these types of testimony
as much weight as you think it deserves considering the factors that I instruct you
on at the end of the proof. These factors generally include the witness's ability or
inability to perceive the relevant events, his memory, his behavior while testifying,
and any potential motives. Another relevant factor is how believable the testimony is
in light of all of the other evidence. You should consider these factors, which I will
explain in more detail when I give my final instructions at the end of the proof, in
weighing the credibility of this witness in considering his factual testimony. As to
Agent Baker's testimony regarding his opinions, you do not have to accept any of the
witness's opinions. In addition to the general factors that I just described in deciding
how much weight to give an opinion, you should consider the witness's qualifications
and how he reached his conclusions. You should also consider this witness's dual fact
and opinion roles in determining what weight, if any, to give his opinion
testimony…” [Id., PageID 1381-1382].

Baker testified to his experience, which included a previous position with the
Kentucky State Police and currently with the Bureau of Alcohol, Tobacco, Firearms
19

and Explosives.
Profiling drug cases: Baker was asked if in the area he served [Kentucky], in
his experience, his cases overlapped with regard to firearms and drugs. Baker
responded that they did. Baker was asked if methamphetamine was “prevalent.”
Baker responded, “Very much so.” Baker was asked if he had experience with
numerous other methamphetamine investigations overlapping with firearms. Baker
responded, “Lately that's the most common investigation when it comes to drugs and
methamphetamine.” [Id., PageID 1383].
Eventually the prosecutor asked about the Danny Collins case. The
government elicited that Baker had been informed of controlled buys and possible
firearms in the Danny Collins case. The government asked if Baker was present for
numerous controlled buys by Couch of methamphetamine or firearms, or both. Baker
responded, “I was.”
Baker was asked if he recalled a specific buy that occurred on March 2, 2018.
Baker responded, “I do.” Baker was asked what was purchased and Baker said that
a Winchester Model 37 20-gauge shotgun was purchased. Baker was asked what
procedures were employed for these controlled buys. Baker recounted the procedures
and stated that there were no discrepancies from these procedures by Couch. Baker
was asked if he continues to use Couch as a confidential informant. Baker replied, “I
do.” Baker was asked if Couch continues to work as a confidential informant after
there were no criminal charges pending against him. Baker replied, “He does.” Baker
20

testified that the shotgun functioned and that it was manufactured outside of
Kentucky. Baker testified that Collins occupied the residence in question as shown
on his driver’s license. [Id., PageID 1383-1390].
Baker reiterated that there were buys in November 2017, and December 8,
2017. The prosecutor said there was a buy on December 12, 2017, and asked Baker
to describe it. The prosecutor said that Couch was sent “in” again on January 17,
2018. The prosecutor said that that was the first buy involving a firearm, Baker
replied, “That is correct.” The prosecutor asked Baker to describe the transaction
and Baker said that the purchase was from Samantha Collins and Kevin Quillen
and that the gun was a Savage Stevens 94H. Baker testified that the purchase also
involved another 8-ball of methamphetamine. The prosecutor asked how much the
“Collins organization” was charging for an 8-ball. Baker replied, “$300, give or take.”
The prosecutor asked how much they were charging for an ounce and Baker said 12
to 14 hundred dollars. [Id., PageID 1390-1392].
The prosecutor said that there had been testimony that “the defendant was
receiving up, anywhere from a pound, all the way to a kilogram when he was
traveling to Louisville.” (There had been no such testimony.) The prosecutor asked
how much “a pound” would go for at that time. Baker replied, “approximately 5,000.”
The prosecutor asked the price of “a kilogram” and Baker estimated “10,000.” [Id.,
PageID 1392-1393].
Baker testified that on January 24, 2018, there was another buy for an ounce
21

of methamphetamine and two pistols. Baker testified that on February 13, 2018,
there was a buy for an ounce of methamphetamine. Baker testified that on February
13, 2018, outside of the residence two firearms were purchased from Kevin Quillen.
Baker testified that on February 21, 2018, there was a buy for an ounce of
methamphetamine but this time the Collins’s thought they were being robbed. [Id.,
PageID 1393-1398].
Baker testified that a search of the Collins’ residence occurred on March 12,
2018, and at that time there was over $10,000 worth of methamphetamine in the
residence. [Id., PageID 1398].
Again profiling drug cases, the government asked:
Q. Is it common for methamphetamine dealers to be robbed for either their
drug money or methamphetamine?
A. It is always a risk. The drug dealer business is cutthroat. It is always a
risk. Individuals who are buying the drugs or trafficking with them know they have
got cash, or they have got drugs that are valuable, so it is the nature of the beast.
[Id., PageID 1399].
On cross examination Baker testified that although prerecorded bills were
utilized during the investigation none were recovered. Baker testified that there
were no fingerprints in the firearms involved in the case. Baker testified that he was
not inside the residence or garage when the transactions took place. Baker testified
that Kevin Quillen was present for the transactions. Baker testified that when
22

arrested Danny Collins did not possess firearms. [Id., PageID 1399-1404].
On redirect examination Baker gave new testimony to an inaudible portion of
a video and a portion of a video upon which the camera was covered to the effect that
it was Danny Collins who gave a firearm to Kevin Quillen based upon a “hand”
appearing in the video. Although the Court granted the defense an opportunity to
recross upon the hand and to police testifying to inaudible portions of the audio, the
defense declined. [Id., PageID 1404-1405].
For its final witness the government called William Farley. Farley testified
that Danny Collins was his brother-in-law. Farley testified that Danny Collins’
residence was no more than a hundred feet from Farley’s residence. Farley testified
that Danny Collins and his daughter lived at that address. Farley testified that
there was a high volume of traffic at Collins’ residence with cars going in and out
day and night. Farley denied his statement to federal law enforcement that Collins
admitted to Farley that he was a methamphetamine dealer but Farley admitted that
he might have said it. [Id., PageID 1407-1414].
On cross examination Farley testified that Danny Collins received
approximately $4,000.00 a month in disability and social security payments. Farley
testified that he and his wife were raising Samantha Collins’ children. Farley
testified that Danny Collins spent periods of time living in Virginia. [Id., PageID
1415-1417].
There was no redirect examination and the prosecution rested.
23

The defense rested without calling any witnesses.
The jury convicted on all counts, i.e., Count One, Conspiracy to Distribute
Methamphetamine, 500 grams or more 21U.S.C. § 846; Count Two, Possession of a
Firearm in furtherance of a drug trafficking offense 21 U.S.C. § 924(c); and Count
Four, Felon in Possession of Firearm 18 U.S.C. §§ 922(g)(1). [R. 137: Verdict 413414].
On July 14, 2020, Court entered Judgment sentencing Danny Collins to 251
months imprisonment on Counts 1, 2 and 4 followed by ten years supervised release,
and the special assessment of $300.00. [R. 191: Order, PageID 742-52.]
On July 20, 20209, Collins filed a Notice of Appeal. [R. 195: Motion, PageID
758-60.]

REASONS FOR GRANTING THE WRIT
1. Because courts are not following this Court’s precedent that there is
always a right to cross examine witnesses regarding their testimony
and the Sixth Circuit has authorized the denial of cross examination
concerning redirect testimony.

Petitioner submits that certiorari should issue because some courts have
adopted a policy, i.e., a trial structure, that a court may refuse cross examination
concerning redirect testimony unless the court deems the redirect testimony to be
unreliable. The Sixth Circuit rejected structural error analysis. The Sixth Circuit
24

approved the practice of refusing cross examination concerning redirect testimony
without leave of court. The Sixth Circuit used exactly the same analysis as did the
district court in disallowing recross examination in affirming the conviction. The Sixth
Circuit’s held that courts are given wide latitude in limiting cross examination and,
therefore, even the complete denial of cross examination will be judged by harmless
error analysis. The Sixth Circuit determined that recross examination was unlikely to
significantly weaken the redirect testimony as the redirect testimony seemed to be
reliable.
This Court stated:
“The text of the Sixth Amendment does not suggest any open-ended exceptions
from the confrontation requirement to be developed by the courts. Rather, the
“right ... to be confronted with the witnesses against him,” Amdt. 6, is most
naturally read as a reference to the right of confrontation at common law,
admitting only those exceptions established at the time of the founding.”
(Emphasis added.) Crawford v. Washington, 541 U.S. 36, 54 (2004).
This Court has instructed:
“The Confrontation Clause commands that reliability be assessed in a
particular manner: by testing in the crucible of cross-examination. Roberts
allows a jury to hear evidence, untested by the adversary process, based on a
mere judicial determination of reliability, thus replacing the constitutionally
25

prescribed method of assessing reliability with a wholly foreign one.” Id., 541
U.S. at 37.
The trial structure devised and used to try Collins permitted recross
examination only with leave of court. This trial structure is precisely the type of
exception to the confrontation requirement developed by the courts which is prohibited
by this court. As such, it constitutes structural error.
The Sixth Circuit endorsing the prohibited procedure of judicial determination
of testimony’s reliability, applied harmless error analysis and found no abuse of
discretion in the district court’s denial of cross examination, and so, no error.
(Appendix 1). This holding is in conflict with this Court’s precedent in in Crawford,
supra.
This Court has instructed:
That “the purpose of the structural error doctrine is to ensure insistence on
certain basic, constitutional guarantees that should define the framework of any
criminal trial.” Weaver v. Massachusetts, __ U.S. __, 137 S. Ct. 1899, 1907 (2017).
This Court has instructed that all testimony must be subject to cross examination as
a matter of Constitutional Right, not as a privilege permitted only with leave of
court.
Petitioner’s convictions were obtained in violation of Petitioner’s right to
Confront witnesses against him as guaranteed by the Sixth Amendment to the

26

United States Constitution and should be vacated.
CONCLUSION
Petitioner, Danny Collins, requests that this Court grant certiorari, reverse the
Sixth Circuit’s affirmance, and remand for further proceedings.

Respectfully submitted,

Gregory C. Sassé LLC
6642 Silvermound Drive,
Mentor, Ohio 44060
Telephone No: 440-488-1919
Facsimile No: (440) 974-8194
gregory.sasse@gmail.com

Counsel for Petitioner

27

APPENDIX
1.

COURT OF APPEALS OPINION July 26, 2021.

28

